HHS/OIG - Audit,"Review of Washington State's Administrative Costs Claimed for Medicaid School-Based Health Services in State Fiscal Year 2000,"(A-10-01-00011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Washington State's Administrative Costs Claimed for Medicaid School-Based Health Services in State Fiscal
Year 2000," (A-10-01-00011)
May 31, 2002
Complete
Text of Report is available in PDF format (1.3 mb).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether administrative expenditures claimed by the Washington State Department
of Social and Health Services (State) for school-based health services for the period July 1, 1999 through June 30, 2000
(State Fiscal Year (SFY) 2000) were reasonable, allowable, and adequately supported.  The final report points out
that the State did not properly implement and monitor the school-based health services administrative match program.  As
a result, in SFY 2000 the State: (1) claimed $527,102 in Federal financial participation based upon unallowable overhead
costs for three school districts; (2) utilized non-Medicaid program data to allocate costs between Medicaid and non-Medicaid
students; and (3) allowed invalid time studies to be used to claim Federal reimbursement. We recommended procedural improvements
and a financial adjustment of $527,102 for the payments of unallowable overhead costs.